        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
Safety Aspects of Wet Storage of
Spent Nuclear Fuel




OAS-L-13-11                                July 2013
                                 Department of Energy
                                    Washington, DC 20585

                                         July 10, 2013


MEMORANDUM FOR THE SENIOR ADVISOR FOR ENVIRONMENTAL
               MANAGEMENT


FROM:                   Daniel M. Weeber
                        Assistant Inspector General
                          for Audits and Administration
                        Office of Inspector General

SUBJECT:                INFORMATION: Audit Report on "Safety Aspects of Wet Storage of
                        Spent Nuclear Fuel"

BACKGROUND

The Department of Energy (Department) is responsible for managing and storing spent nuclear
fuel (SNF) generated by weapons and research programs and recovered through nonproliferation
programs. The SNF consists of irradiated reactor fuel and cut up assemblies containing uranium,
thorium and/or plutonium. The Department stores 34 metric tons of heavy metal SNF primarily
in two wet storage basins located at the Savannah River Site and the Idaho National Laboratory
(Idaho).

Wet storage requires operational vigilance and reliance on mechanical systems to ensure the
safety of workers, the public and the environment. The risk associated with long-term wet
storage of SNF is well-demonstrated by the recent disaster in Japan. Specifically, in 2011 an
earthquake and subsequent tsunami at Japan's Fukushima Daiichi nuclear reactor complex
(Fukushima) caused extensive damage to SNF cooling basins, allowing contaminated water to
leak into the environment and exposing SNF to the atmosphere. While not subject to damage
from tsunamis, environmental or mechanical issues are within the realm of possible damage
scenarios faced by the Department's SNF storage facilities.

Considering these concerns, we initiated this audit to determine whether the Department was
effectively managing the safety of its SNF wet storage basins.

RESULTS OF AUDIT

Because it lacks a clear disposition path, the Department had not developed definitive plans to
dispose of its SNF. In Fiscal Year (FY) 2010, the Department withdrew its intent to develop a
geological repository at Yucca Mountain, Nevada to dispose of SNF and high-level waste. Then
in 2011, the Department deferred processing aluminum-clad SNF, some of which is in wet
storage, until recommendations of the Blue Ribbon Commission on America's Nuclear Future
(Blue Ribbon Commission) were issued and evaluated. As a consequence, the Department
determined it must maintain interim SNF wet storage facilities longer than planned and until
disposition options become available.

Given the lack of disposition paths, the Department is taking steps to manage the safety of its
SNF wet storage basins, namely L-Basin at the Savannah River Site and CPP-666 at Idaho. Our
review revealed that, as required by both Federal and Department regulations, program officials
had analyzed the risks related to storage, documented these analyses, and concluded that the
continued use of the wet storage facilities was appropriate. Also, we noted that the Department
was actively responding to concerns generated by the Fukushima natural disaster and the
anticipated extended interim wet storage of SNF. However, while the Savannah River Site has
initiated activities designed to support the prolonged storage of SNF in L-Basin, completion of
these activities is being deferred due to funding constraints.

                                         Safety Analysis

The Department had implemented orders, technical standards and guides to ensure the safety of
its nuclear facilities, including SNF wet storage basins. Title 10 Code of Federal Regulations
Part 830, Nuclear Safety Management, requires that a Documented Safety Analysis (DSA) be
performed and updated annually for all Department-owned nuclear facilities. The Department
directives provide detailed guidance for evaluating, documenting and approving a DSA.
Approval of the DSA signifies that the Department has determined that there is reasonable
assurance that the facility can be operated safely consistent with the design parameters for the
facility and provides the basis for authorizing continued operation of the facility. We reviewed
the approved DSAs for L-Basin and CPP-666 in effect for FY 2012 and found that the DSAs
followed the format and content specified in the guidance. Specifically, the DSAs generally
identified design basis accident scenarios along with postulated consequences and mitigating
controls.

                                  Additional Safety Measures

In light of the natural disaster at Fukushima, the Department had taken additional measures to
ensure that potential impacts of "beyond design basis events" are adequately evaluated. Beyond
design basis events are accident sequences that, while possible, are not fully addressed in the
design process of a facility because they are judged to be too unlikely. After reviewing the
events at Fukushima, the U.S. Nuclear Regulatory Commission reported that the factors that
directly impacted safety at Fukushima were beyond design basis events. In response to the U.S.
Nuclear Regulatory Commission report and believing it prudent to evaluate similar
vulnerabilities at Department-owned nuclear facilities, the Department required facility managers
to review their safety analysis documents and report on existing beyond design basis analyses
and mitigating controls.

In June 2011, a Department-sponsored workshop evaluated the results of these reviews and
determined that although existing safety analysis already addressed beyond design basis events,
Department guidance did not provide sufficient detailed criteria for implementation. At the time
of our review, the Department was in the process of implementing the workshop

                                                2
recommendations to revise guidance documents to improve the evaluation process and determine
whether additional responses are warranted in relation to severe natural phenomena events.
However, we determined that beyond design basis accident scenarios, including severe natural
phenomena events, were generally addressed in the safety analysis documents for the SNF wet
storage basins.

                                  Long-Term Interim Wet Storage

The Department is taking measures to ensure the safe management of its SNF wet storage basins
in anticipation of extending the timeframe for long-term interim storage. The Blue Ribbon
Commission's final report, issued in January 2012, recommended the development of one or
more geologic repositories for final disposal of SNF and noted the need for extended interim
storage while final disposition plans are developed. In January 2013, the Department issued a
strategy for implementing the Blue Ribbon Commission's recommendations that states that the
Administration intends to make a geologic repository available by 2048. This strategy is
unlikely to result in an extension of long-term wet storage of SNF in CPP-666 basin at Idaho
because, according to Departmental officials, it is already on track to have all the SNF now
stored there transferred from wet to dry storage by 2023, in accordance with the existing 1995
Settlement Agreement. However, extended long-term interim wet storage of SNF is expected
and being planned at the Savannah River Site's L-Basin.

In anticipation of the need for extended interim storage, the Department initiated actions to
support the safe long-term storage of SNF in L-Basin. An April 2011 feasibility study concluded
that SNF could be stored in L-Basin for an additional 50 years or more, contingent on
continuation of existing fuel management activities and establishing augmented monitoring and
assessment activities. At the direction of the Department, the management and operating
contractor developed three plans for implementing the recommended activities. These plans
include monitoring and assessing the aluminum fuel in standard storage configurations, isolation
cans containing degraded/damaged fuels and the basin structural integrity. The Department will
use the data obtained to establish a new baseline to support management decisions and update
program activities for the extended L-Basin lifecycle. A broad range of estimated costs,
$4 million to $8 million, was projected to ensure completion of the monitoring and assessment
activities. Additionally, the contractor established a preliminary schedule for conducting the
monitoring and assessment activities, but noted that it could be a flexible schedule to
accommodate the availability of funding.

The Department initiated some of the monitoring and assessment activities outlined in the formal
plans during FY 2012. Savannah River Site officials told us that there is no urgency to complete
the remaining activities and indicated that this position is supported by the positive results from
activities performed to date. Specifically, water sampled from inside bundled aluminum fuel
tubes and ultrasonic testing performed on isolation cans returned results that were consistent with
or better than those expected. While these positive results provide helpful information to support
near term decisions, Savannah River Site officials stated that the results of each step in the
monitoring and assessment evaluations determine the next steps to be completed and, ultimately,
final decisions are contingent on completion of all monitoring and assessment activities.



                                                3
Although the monitoring and assessment activities are deemed necessary to justify extending the
use of L-Basin to store SNF, the Department has not specified when this needs to be completed,
and has deferred going forward with the rest of the planned activities until at least FY 2014 due
to funding constraints. For example, qualification of the video system to be used for visual
examinations of the fuel and corrosion susceptibility evaluations of fuel in isolation cans has
been deferred. Also, concrete core samples were obtained from a surrogate basin, but
degradation analysis of the core samples has been deferred.

While Savannah River Site officials were generally positive regarding wet storage, a 2013
Defense Nuclear Facilities Safety Board technical report identified vulnerabilities associated
with long-term storage of reactive metal SNF in L-Basin. Specifically, the Defense Nuclear
Facilities Safety Board questioned the indefinite storage of damaged SNF stored inside isolation
cans or bundles because the current internal condition of many of these items is unknown. The
report notes that further attention to the disposition of such vulnerable fuels is warranted.

SUGGESTED ACTION

Department officials are aware of the current status of the augmented monitoring and assessment
activities and stated that deferral of these activities will have no immediate impact on the safety
basis of L-Basin. Furthermore, we understand the need for some flexibility in the Department's
schedule for implementing these activities due to funding constraints. However, the Department
plans to store SNF at the Savannah River Site's L-Basin indefinitely and has determined that
completion of certain monitoring and assessment activities are necessary in order to validate the
technical basis for extending the use of L-Basin. In light of the need to eventually complete the
activities deferred due to funding constraints, we suggest that the Department establish formal
timeframes for completing these essential, augmented monitoring and assessment activities.

Attachment

cc: Deputy Secretary
    Chief of Staff
    Chief Health, Safety and Security Officer
    Manager, Savannah River Operations Office
    Manager, Idaho Operations Office




                                                 4
                                                                                      Attachment


                       OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of the audit was to determine whether the Department of Energy (Department) is
effectively managing the safety of spent nuclear fuel (SNF) in wet storage basins.

SCOPE

We performed the audit between February 2012 and May 2013. Work was conducted primarily
at the Savannah River Site in Aiken, South Carolina, with additional information coming from
the Office of Environmental Management and the Office of Health, Safety and Security in
Washington, DC, as well as Idaho National Laboratory in Idaho Falls, Idaho. The audit included
a review of safety aspects related to the long-term wet storage of SNF.

METHODOLOGY

To accomplish the objective of this audit, we:

   •   Researched applicable Federal and Department regulations and guidance;

   •   Reviewed prior Office of Inspector General and Government Accountability Office
       reports related to the audit objective;

   •   Reviewed current Department plans related to storage and disposition of SNF;

   •   Reviewed safety analysis documents for the Department's cooling and storage basins; and

   •   Interviewed Department and/or contractor management personnel with responsibility
       over SNF.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. We also assessed performance measures in accordance with the GPRA Modernization
Act of 2010 and found that the Department had established performance measures related to
SNF. We did not rely on computer-processed data to satisfy our audit objective.

An exit conference was held with the Office of Environmental Management on May 29, 2013.




                                                 5
                                                                    IG Report No. OAS-L-13-11


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name                                          Date


Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
